TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           The Computer Security Incident
                            Response Center Is Operating
                             As Intended, Although Some
                            Enhancements Can Be Made



                                         September 2005

                              Reference Number: 2005-20-143




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2005


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Computer Security Incident Response Center
                             Is Operating As Intended, Although Some Enhancements Can Be Made
                             (Audit # 200520007)

 This report presents the results of our review of the effectiveness of the Internal Revenue
 Service’s (IRS) Computer Security Incident Response Center (CSIRC) at preventing, detecting,
 and responding to computer security incidents targeting IRS computers and data. As a part of its
 mission, the CSIRC provides assistance and guidance in incident response and provides a
 centralized approach to incident handling across the IRS enterprise.

 Synopsis
 The CSIRC is effective at preventing, detecting, and responding to computer security incidents.
 In particular, it:
     •    Manages entry points into the IRS computer architecture to ensure computer networks are
          secure against external intruders.
     •    Monitors entry points into the IRS computer architecture and major connections within
          the computer network to ensure suspicious activities are detected and reviewed.
     •    Reports and helps investigate computer and physical security incidents detected in the
          IRS.
     •    Identifies and refers Internet misuse by employees to appropriate authorities.
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



    •   Implements processes to rate security patches1 related to software used by the IRS and
        inform system administrators of the vulnerabilities involved.
    •   Performs vulnerability scanning along with penetration tests of IRS computers.
We identified two areas where improvements could be made. First, the CSIRC has been
operating under draft patch management procedures since November 2003. The lack of formal
guidance can hinder the CSIRC and system administrators in the Modernization and Information
Technology Systems organization in timely installing software patches on all appropriate
computers. As an example, the draft guidance requires the CSIRC to conduct periodic follow-up
to ensure patches are installed. We found the CSIRC did not regularly perform follow-up
activities on patches. The installation of patches is critical in deterring unauthorized accesses
and minimizing disruptions of service from internal and external threats to known weaknesses.
The importance of timely installing patches can be illustrated when the IRS did not timely install
patches on all computers that were vulnerable to the SASSER worm.2 About 19 days after
notification about the patch, the SASSER worm had spread throughout the IRS’ internal
computer network. The IRS believed it sustained several million dollars in lost productivity and
potential losses of about $50 million in tax assessments and collections.
Second, problems identified during vulnerability scans and penetration tests were not formally
provided to the business owners, and corrective actions were not documented in Plans of Action
and Milestones (POA&M)3 as required by the Federal Information Security Management Act
(FISMA).4 In addition, unless requested by the business unit, the CSIRC did not always follow
up to ensure corrective actions were implemented. As a result, vulnerabilities may not be
corrected or sufficiently reduced.

Recommendations
We recommended the Chief, Mission Assurance and Security Services, ensure the draft patch
management guidance is finalized, ensure business units include security weaknesses identified
from vulnerability scans and penetration tests in POA&Ms, and implement procedures to


1
  Vendors issue software security patches to correct flaws identified after their software has been released to the
public.
2
  The SASSER worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploit code to the computers. It also probed for other computers to infect.
This worm rendered computers inoperable.
3
  A POA&M is a tool that identifies tasks that need to be accomplished and includes documenting resources
required to accomplish the element of the plan, any milestones in meeting the tasks, and scheduled completion dates
for the milestones. The purpose of POA&Ms is to assist agencies in identifying, assessing, prioritizing, and
monitoring the progress of corrective efforts for security weaknesses found in programs and systems.
4
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                                  2
                 The Computer Security Incident Response Center Is Operating
                   As Intended, Although Some Enhancements Can Be Made



formally share results with the head of the requesting office and routinely follow up to ensure
corrective actions are taken and effective.

Response
The Chief, Mission Assurance and Security Services, concurred with our findings and
recommendations, which will further assist the CSIRC in preventing, detecting, and responding
to computer security incidents. The Mission Assurance and Security Services organization will
finalize the patch management guidance manual, document vulnerability assessment and
penetration test findings in a memorandum to the respective FISMA project office and the
Executive in charge, ensure planned corrective actions to findings are reported through the
FISMA process, and re-run scans and penetration tests to ensure vulnerabilities were effectively
reduced. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                   3
                       The Computer Security Incident Response Center Is Operating
                         As Intended, Although Some Enhancements Can Be Made




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Firewall Administration and Management Were Effective ..........................Page 2
          Intrusion Detection Systems Were Effective................................................Page 3
          Incident Response, Recovery, and Reporting Were Effective......................Page 4
          Internet Misuse Monitoring Was Effective...................................................Page 5
          Security Patches Were Properly Identified and Evaluated
          for Applicability, but Follow-Up Is Needed to Ensure
          Patches Are Timely Installed ........................................................................Page 6
                    Recommendation 1:........................................................Page 8

          Vulnerability Scanning and Penetration Testing Were
          Performed, but Follow-Up Was Not Always Conducted .............................Page 8
                    Recommendations 2 through and 4: ...................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
                The Computer Security Incident Response Center Is Operating
                  As Intended, Although Some Enhancements Can Be Made




                                      Background

The Internal Revenue Service’s (IRS) Computer Security Incident Response Center (CSIRC)
was designed to ensure the IRS has a team of capable “first responders” who are organized,
trained, and equipped to identify, contain, and eradicate cyber threats targeting IRS computers
and data. The CSIRC provides a single clearinghouse of information and centralized pool of
highly specialized expertise to detect and respond to computer attacks against the IRS.
The activities under the CSIRC program include:
   •   Firewall Administration and Management.
   •   Intrusion Detection.
   •   Incident Response, Recovery, and Reporting.
   •   Internet Misuse Monitoring.
   •   Security Patch Identification and Applicability to the IRS.
   •   Vulnerability Scanning and Penetration Testing.
This review was performed at the IRS’ CSIRC National Headquarters in New Carrollton,
Maryland, during the period December 2004 through May 2005. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 1
                    The Computer Security Incident Response Center Is Operating
                      As Intended, Although Some Enhancements Can Be Made




                                       Results of Review

Firewall Administration and Management Were Effective

The primary function of firewalls is to keep a computer or computer network secure from
intruders. Firewalls can be hardware or software and are typically installed at entry points into a
network. They evaluate all traffic coming into and leaving the network based on configurations
established by the organization. The effectiveness of firewalls depends on the placement,
configurations, and configuration change management process of the firewalls.
The IRS installed firewalls at all connection points from the Internet and business partners1 into
the IRS’ internal computer network. At the highest risk connections, a two-tier firewall scheme
was implemented. The two-tier approach leverages the two firewall technologies2 to more
completely protect each connection point. This approach significantly reduces the likelihood of
an improper access because a configuration error or security flaw on one of the firewalls is not
likely to exist on the other firewall.
Overall, the configurations on the firewalls we
reviewed were effective at protecting the IRS’ internal    Overall, the configurations on the
computer network. We identified configuration errors          firewalls we reviewed were
                                                            effective at protecting the IRS’
where disallowed traffic could have been allowed to           internal computer network.
pass through the firewall. For example, one firewall
erroneously allowed all external users to have full
access to a portion of the IRS’ internal computer network. However, the two-tier firewall
approach prevented successful attacks because the second firewall did not contain the same
configuration error. The CSIRC immediately corrected these weaknesses when we brought them
to its attention.
In addition, the CSIRC has implemented a change management process for firewall
configurations that is web based and implements all requirements from the Department of the
Treasury security directives. Changes to the firewalls are installed when necessary by the



1
  Business partners refer to those organizations that need connectivity to do business with or for the IRS. Examples
include financial institutions and other Federal Government agencies.
2
  The two firewall technologies are packet filtering and application firewalls. Packet-filtering firewalls review the
source and destination addresses of the network traffic along with the type of traffic to a set of rules to decide
whether the traffic should be allowed to proceed intact. Application firewalls stop all traffic coming to the firewall
and repackage the traffic data for delivery on the other side while reviewing its contents. While this is more secure,
it uses more resources of the firewall computer.
                                                                                                              Page 2
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



CSIRC staff and contractors and require approval by the CSIRC manager before implementation.
Our review found this process is working as intended.
The IRS is moving the responsibility for maintaining firewalls from the CSIRC to the
Information Technology Service Enterprise Networks organization.3 This change is to be in
place at the beginning of Fiscal Year 2006.


Intrusion Detection Systems Were Effective

Intrusion detection systems provide an organization the ability to monitor the activity of its
computer network and look for suspicious or unauthorized actions from both external and
internal threats. The Federal Information Security Management Act (FISMA)4 specifically
requires Federal Government agencies to develop procedures to detect, report, and respond to
security computer incidents. Similar to the firewall architecture, an effective detection program
depends on the placement, configuration, and maintenance of intrusion detection sensors. The
sensors record traffic data, and the servers collect all data from the sensors and evaluate the
traffic for patterns or characteristics of known attack scenarios.
The placement of sensors throughout the IRS’ internal computer network was sufficient and
effective. Sensors were deployed at perimeter connections of the computer network and at the
major internal network connections at the campuses5 and Computing Centers.6 In addition,
sensors were installed on many of the major servers throughout the IRS infrastructure. The
CSIRC plans to add more sensors throughout the network as soon as funding is available, which
will allow the CSIRC to more completely monitor traffic moving within the IRS campus
networks.
                                          The sensors we reviewed were well configured,
   Intrusion detection sensors were       maintained, and monitored by the CSIRC staff and
    well configured, maintained, and      contractors. The sensors were using up-to-date
      monitored by the CSIRC staff
                                          configurations to detect known cyber attacks and
    24 hours per day, 7 days a week.
                                          automatically sent alerts to the CSIRC staff for analysis
                                          as questionable incidents were detected. The CSIRC
facility is staffed 24 hours per day, 7 days a week, using both contractors and employees.

3
  The mission of the Enterprise Networks organization is to positively satisfy IRS business units’ requirements by
providing all forms of electronic communications in the most efficient and effective manner and by managing the
day-to-day operations of the telecommunications environment.
4
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
5
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                          Page 3
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



We performed our own scanning activities of a portion of the IRS architecture over a
2-week period. During that period, the sensors inside the IRS network detected and recorded our
activities.


Incident Response, Recovery, and Reporting Were Effective

If a hacker, disgruntled employee, or contractor attempts an unauthorized access, or a virus
enters the IRS internal computer network, the IRS must respond quickly. Once an incident has
been detected, the CSIRC must determine the scope of the incident, determine how best to
contain the damage, and develop plans to recover from the incident. The CSIRC is also required
to report significant incidents to the Treasury Inspector General for Tax Administration (TIGTA)
Office of Investigations and the Department of the Treasury CSIRC function.
As part of its incident response program, the CSIRC maintains an incident response database to
track an incident from the time it is reported until it is closed. The database includes who
reported the incident, the point of contact, notes on email and telephone contacts during the
incident review, corrective actions that were taken and, if necessary, results of any follow-up
tests.
The CSIRC followed procedures, which are based on
guidance from the Department of the Treasury and the             The CSIRC followed procedures
National Institute of Standards and Technology, to 7                 to effectively identify and
effectively identify and respond to cyber and physical            respond   to cyber and physical
                                                                         security incidents.
security incidents. In addition, it properly referred
significant incidents to the TIGTA when necessary,
assisted in the subsequent investigations, and properly reported results to the Department of the
Treasury CSIRC function. Between January 1, 2004, and March 3, 2005, the CSIRC recorded
1,361 incidents in its database, which consisted of:
    •   Violations of the IRS’ personal use policies (512).8




7
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
8
  The IRS’ policy on limited personal use of Government Information Technology equipment/resources defines
acceptable use of the Internet by IRS employees.
                                                                                                         Page 4
                       The Computer Security Incident Response Center Is Operating
                         As Intended, Although Some Enhancements Can Be Made



    •       Malicious code that turned out to be mainly worms, viruses, and phishing emails (413).9
    •       Questionable computer scans of the IRS infrastructure from both internal and external
            entities (264).
    •       Unauthorized access attempts (61).
    •       Theft of computer equipment or data (29).
    •       Miscellaneous incidents, such as denial of service attempts and noncompliance with
            security policies (82).


Internet Misuse Monitoring Was Effective

The Internet is an excellent research resource for employees to better perform their jobs.
Providing access to the Internet for business purposes, however, has also created the opportunity
for abusive Internet browsing habits. As a result, the IRS created a policy on limited personal
use of electronic communications, which specifically states what an employee can and cannot do
on the Internet. The IRS policy specifically prohibits:
        •    Accessing, creating, downloading, viewing, storing, copying, or transmitting sexually
             explicit material.
        •    Creating, downloading, viewing, storing, copying, or transmitting materials related to
             illegal gambling or any other illegal activity.
        •    Using Federal Government equipment/resources for commercial purposes or in support
             of “for profit” activities or in support of other outside employment or business activity.
In June 2003, we issued a report on the IRS Internet policy and employee usage of the Internet.10
This report stated that, although the IRS had an Internet usage policy that was comprehensive
and widely distributed, a substantial number of IRS employees continued to access prohibited
sites that put IRS computer systems at risk. During a 1-week period almost 6 months after the
policy was implemented, over 1 million questionable accesses to web sites were made from
approximately 19,000 computer addresses. These accesses were linked to seven categories of


9
  A virus is a piece of programming code usually disguised as something else that causes some unexpected and, for
the victim, usually undesirable event and which is often designed so it is automatically spread to other computer
users. A worm is a self-replicating virus that does not alter files but resides in active memory and duplicates itself.
Phishing is the illegal act of sending an email to a user under the false pretense of being a legitimate enterprise such
as a bank or online retailer with the intent of having the user disclose his or her account number and/or password.
10
   Inappropriate Personal Use of the Internet Jeopardizes the Security and Privacy of Taxpayer Data (Reference
Number 2003-20-133, dated June 2003).
                                                                                                                Page 5
                    The Computer Security Incident Response Center Is Operating
                      As Intended, Although Some Enhancements Can Be Made



sites specifically listed in the policy as inappropriate: sexually explicit web sites, personal email
accounts, chat rooms, games, music, instant messaging, and sites from which programs were
downloaded.
The current CSIRC Internet misuse monitoring program consists of two mechanisms to deter and
detect employee Internet violations to the IRS’ policy. First, the CSIRC uses commercial
software that is designed to block certain Internet accesses from connecting to those web sites
deemed inappropriate. Second, the CSIRC reviews Internet access log files to identify
questionable Internet accesses that were not blocked by the commercial blocking software. If
necessary, these sites are then added to the software’s forbidden site list so they will be blocked
in the future.
When access to a web site that violates the IRS policy is detected, the CSIRC determines if the
access is by a user who is a “first-time violator.” If so, and the access does not involve sexually
explicit web sites or criminal activity, the user will be sent an email explaining the access
violated the IRS policy and he or she should not attempt to access the web site again. For
sexually explicit web sites and possible criminal activity, the user’s Internet activity will be
reviewed for the prior 3 months. If the access was isolated, the user is treated as a first-time
violator and sent a courtesy email. Repeated attempts will result in referrals to appropriate
authorities based on the severity of the violations.
In Fiscal Year 2004, the CSIRC made 53 referrals. Specifically, these consisted of 34 employees
referred to the IRS Human Resources organization for administrative handling, 10 employees
referred to the TIGTA for criminal investigation, and 9 contractors referred to the IRS Personnel
Security and Investigations office.11
The CSIRC has developed effective procedures and practices to monitor and identify Internet
misuse by IRS employees. Because strong controls and procedures exist, we limited our test to a
1-day sample of employee Internet use and determined that significant Internet misuse did not
exist.


Security Patches Were Properly Identified and Evaluated for
Applicability, but Follow-Up Is Needed to Ensure Patches Are Timely
Installed

The CSIRC is responsible for providing warnings and intelligence information on vulnerabilities,
threats, and incidents that affect IRS computers and data. A key component of these duties is to


11
  The mission of the Personnel Security and Investigations office, under the Mission Assurance and Security
Services organization, is to ensure the employment or retention of employment in the IRS is consistent with the
interests of national security, the efficiency of the Federal Government service, and the integrity of the tax system.
                                                                                                                Page 6
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



review security alerts from various industry and vendor sources and determine if related patches
are applicable to the IRS. Vendors issue patches to fix flaws that become apparent after their
software has been released to the public. These fixes may be to correct one of the features of the
program or a security weakness not known at the time of the software’s release. The installation
of patches generally prevents these weaknesses from being exploited.
The CSIRC properly identified relevant security alerts and patches applicable to the IRS. To
identify security alerts, the CSIRC regularly reviewed web sites maintained by vendors, the
Federal Government, and security organizations. In addition, the CSIRC is included on mailing
lists to receive current vulnerability announcements.
The CSIRC evaluated the risks affecting the IRS infrastructure and appropriately assigned
severity levels for security patches based on the exploit, the software involved, and how widely
the software was in use within the IRS. Patches were assigned one of four levels: red (critical
risk), orange (high risk), yellow (medium risk), and green (low risk). Each level has its own
installation requirements. For example, a critical patch must be installed within 72 hours.
After the CSIRC evaluates patches for applicability, patches are tested by the Modernization and
Information Technology Services (MITS) organization to determine if the installation of the
patch will adversely affect existing computer operations, such as stopping certain parts of
programs from working. If no conflicts are identified, system administrators in the MITS
organization are notified to install the patches.
While the CSIRC has effectively identified security alerts affecting the IRS, it currently does not
follow up to ensure patches are installed. As a result, the IRS has no assurance that even critical
patches are implemented timely and effectively.
The importance of verifying that patches have been installed timely and effectively can be
illustrated by the SASSER worm12 incident in 2004. On April 13, 2004, Microsoft Corporation
                                      notified certain customers, including the IRS, of a patch to
                                      correct the underlying problem exploited by the SASSER
   The IRS estimated the SASSER
       worm potentially caused        worm. On that date, the CSIRC issued a critical alert to
   $50 million of tax assessments     the MITS organization. The MITS organization installed
      and collections to be lost.     patches to its servers but did not install patches to all
                                      vulnerable computers, such as employee workstations. By
                                      May 1, 2004, the SASSER worm was quickly spreading
across the Internet. By May 2, 2004, the SASSER worm had penetrated the IRS’ internal
computer network primarily because the patch had not been installed on all applicable
computers. The IRS estimated the SASSER worm outbreak cost the various business units


12
  The SASSER worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploit code to the computers. It also probed for other computers to infect.
This worm rendered computers inoperable.
                                                                                                           Page 7
                 The Computer Security Incident Response Center Is Operating
                   As Intended, Although Some Enhancements Can Be Made



several million dollars in lost productivity from May 2 through May 10 due to the loss of
connectivity caused by the SASSER worm. The IRS also estimated the SASSER worm
potentially caused $50 million of tax assessments and collections to be lost during this time
period.
Although the CSIRC has the responsibility for identifying security patches that should be
installed, it currently has no authority to verify the patches are installed. The draft patch
management guidance, dated November 2003, addresses this procedural weakness, as it contains
a requirement stating the CSIRC will implement periodic widespread enterprise network and
host vulnerability and security compliance scans to detect and report on deficiencies in the
security patch management process. However, the draft procedures do not specifically state
when these scans should be performed.


Recommendation
Recommendation 1: The Chief, Mission Assurance and Security Services, should ensure the
draft patch management guidance is finalized and include a requirement for the CSIRC to
conduct vulnerability scans across the IRS enterprise to ensure security patches have been timely
installed. The procedures should require the CSIRC to conduct these scans within an appropriate
time period based on the severity level of the security patch.
       Management’s Response: The Director, CSIRC, will finalize the patch management
       guidance manual, which includes the requirement that the CSIRC will perform routine
       and ongoing security assessments to identify systems that have failed to implement
       patches or correct identified security vulnerabilities, to the extent possible.


Vulnerability Scanning and Penetration Testing Were Performed, but
Follow-Up Was Not Always Conducted

The CSIRC conducts scans and penetration tests on IRS computers to find and reduce
exploitable vulnerabilities. Scanning consists of using automated tools to review the computer
resources on the internal network for known vulnerabilities. The automated tools usually target
specific computers on the network with the full knowledge of the users. Penetration testing is
similar to scanning but is usually done from an external perspective (e.g., a hacker attempting to
attack the perimeter of an organization) without the full knowledge of the users.




                                                                                            Page 8
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



The FISMA requires agencies to prepare Plans of Action and Milestones (POA&M)13 for
security weaknesses at the program and system levels. The POA&Ms are to be updated as new
vulnerabilities are identified regardless of how the vulnerabilities were identified (e.g., an
internal security review, business unit self-assessments, or an external security audit).
Scanning and penetration testing efforts were largely conducted on an ad hoc basis, when
requested by the business units. During Calendar Year 2004, the CSIRC conducted
17 vulnerability scans and 2 penetration tests. We reviewed 13 of the scans and the 2 tests and
determined the CSIRC had identified significant security weaknesses on the systems reviewed.
Security weaknesses from these scans included 11 incidents involving authentication controls
and 15 different types of vulnerabilities (316 incidents) that can be exploited to render the
computer useless or to run malicious commands to take over control of the computer.
The CSIRC shared its results with the requesting office, although this was done on an informal
basis. Generally, the person conducting the scan provided the results to the point of contact
within the requesting office. There was no assurance that the head of the requesting office
received the results of the scans or knew what the results were.
In addition, the CSIRC did not always follow up to determine if the vulnerabilities identified had
been corrected. Follow-up reviews were conducted only
when requested by the business units. CSIRC officials            The CSIRC did not always
cited a lack of staffing as the main reason for not being         follow up to determine if
able to follow up with requesting offices. We contacted         vulnerabilities identified had
several of the individuals who had requested the                       been  corrected.
vulnerability scanning to determine the actions taken to
address weaknesses identified. They indicated the results
were disseminated down to the local managers for corrective actions, but the POA&Ms were not
updated with the vulnerabilities identified by the CSIRC. The business units we contacted stated
the problems were local and not national and, therefore, should not be added to the POA&Ms.
We disagree with this rationale since the FISMA clearly requires all security weaknesses to be
included in the POA&Ms for accountability and resolution purposes.
By not formally sharing results of tests with the heads of office, documenting results in
POA&Ms, and following up, the IRS is not assured that identified vulnerabilities have been
corrected or sufficiently mitigated.




13
  A POA&M is a tool that identifies tasks that need to be accomplished and includes documenting resources
required to accomplish the element of the plan, any milestones in meeting the tasks, and scheduled completion dates
for the milestones. The purpose of POA&Ms is to assist agencies in identifying, assessing, prioritizing, and
monitoring the progress of corrective efforts for security weaknesses found in programs and systems.
                                                                                                           Page 9
                 The Computer Security Incident Response Center Is Operating
                   As Intended, Although Some Enhancements Can Be Made




Recommendations
The Chief, Mission Assurance and Security Services, should:

Recommendation 2: Require the CSIRC to formally provide scanning and penetration
testing results to the business units in the form of a memorandum from the Office of the Chief,
Mission Assurance and Security Services, to the Executive in charge of the requesting office.
       Management’s Response: The Director, CSIRC, will document the findings from
       vulnerability assessments and penetration tests in a memorandum to the respective
       FISMA project office via the Executive in charge.
Recommendation 3: Ensure the business units document results and planned corrective
actions from vulnerability scans and penetration tests in the POA&Ms, as required by the
FISMA.
       Management’s Response: The Director, CSIRC, will ensure all findings yielded
       from vulnerability assessments are documented and referred to the appropriate FISMA
       project office within the respective business units. The FISMA project office will accept
       and document the report findings for tracking corrective actions.
Recommendation 4: Require the CSIRC or another office to follow up on high-risk
vulnerabilities identified from scanning and penetration testing to ensure vulnerabilities are
corrected or properly reduced.
       Management’s Response: The Chief, Mission Assurance and Security Services, will
       ensure the business units’ FISMA project offices monitor, track, and report on findings
       from vulnerability assessments through closure. Upon notification from the FISMA
       project office of closure, the CSIRC will re-run scans and penetration tests to ensure
       vulnerabilities were effectively reduced.




                                                                                            Page 10
                   The Computer Security Incident Response Center Is Operating
                     As Intended, Although Some Enhancements Can Be Made



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the Internal Revenue
Service’s (IRS) Computer Security Incident Response Center (CSIRC) at preventing, detecting,
and responding to computer security incidents targeting IRS computers and data. To accomplish
this objective, we:
I.      Evaluated the security provided by the firewalls maintained by the CSIRC.
        A. Reviewed the configurations of a judgmental sample of 13 firewalls from the
           67 firewalls installed on the IRS infrastructure. The sample selected was
           representative of the firewalls installed, the Computing Centers1 where they were
           located, and the connection points being protected. A judgmental sample was used
           because we were not planning to project the results.
        B. Reviewed a random sample of 28 firewall configuration change management requests
           made between January 1, 2004, and February 28, 2005. During this period, we found
           373 change management requests.
        C. Reviewed the process to accumulate and review the logs generated by the firewalls.
II.     Evaluated the effectiveness of intrusion detection systems operations.
        A. Reviewed the configurations of a judgmental sample of 10 intrusion detection sensors
           from the 67 sensors installed on the IRS infrastructure. The sample selected was
           representative of the types of sensors installed, where they were located, and the
           connection points being protected. A judgmental sample was used because we were
           not planning to project the results.
        B. Reviewed how the intrusion detection sensors were deployed within the IRS.
        C. Reviewed all 68 intrusion detection change requests made from January 2004 through
           February 2005.
        D. Scanned the IRS network from April 20, 2005, to May 2, 2005, and verified with the
           CSIRC that this scanning activity was identified and logged.




1
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.

                                                                                                     Page 11
                The Computer Security Incident Response Center Is Operating
                  As Intended, Although Some Enhancements Can Be Made



III.   Evaluated the adequacy of the incident response and recovery actions.
       A. Evaluated the processes and procedures for determining the nature of incidents, the
          containment of the incidents, remediation of the issues or causes, recovery or
          reconstitution of the systems for return to operational status, and education of
          personnel on lessons learned.
       B. Identified 1,361 incidents reported on the CSIRC’s incident response database
          between January 1, 2004, and March 3, 2005, and categorized the incidents by
          incident type.
       C. Reviewed the reports from 12 incidents, including postmortem reports and reports to
          IRS management, the Department of the Treasury, and the Treasury Inspector
          General for Tax Administration (TIGTA).
IV.    Evaluated the effectiveness of the security alert and patch process.
       A. Evaluated the sources used to generate alerts, the process for determining their
          criticality, and the processes for issuing alerts and any follow-up regarding
          corrections based on the alerts.
       B. Reviewed the 44 alerts for Microsoft Windows issued by the IRS during Fiscal
          Year 2004 and compared them to the related Microsoft Corporation security bulletins
          to ensure the alerts were coded correctly for their level of criticality.
V.     Evaluated the effectiveness of the vulnerability scans and penetration tests conducted by
       the CSIRC.
       A. Ascertained that 17 vulnerability scans and 2 penetration tests were performed during
          Calendar Year 2004.
       B. Reviewed the results of 13 of the 17 vulnerability scans and the 2 penetration tests
          and determined what security vulnerabilities were identified, to whom the results
          were reported, and if follow-up scans were performed. Due to time constraints, we
          did not evaluate four of the scans.
VI.    Evaluated the adequacy of the Internet usage log file reviews.
       A. Reviewed the procedures for monitoring Internet usage by employees and contractors
          and for referring inappropriate Internet accesses to IRS management and the TIGTA.
       B. Reviewed a random sample of 384 Internet firewall log entries from the
          1,671,452 log entries for transactions of 5,000 bytes or more that went through the
          Martinsburg Computing Center Internet firewall on March 23, 2005. The sample was
          selected through interval selection.




                                                                                             Page 12
                The Computer Security Incident Response Center Is Operating
                  As Intended, Although Some Enhancements Can Be Made



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
David Brown, Senior Auditor
William Lessa, Senior Auditor
Larry Reimer, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                         Page 13
               The Computer Security Incident Response Center Is Operating
                 As Intended, Although Some Enhancements Can Be Made



                                                                           Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Assurance Programs OS:MA:AP
Deputy Director, Information Technology Security Program Office OS:MA:AP
Chief, Computer Security Incident Response Center OS:MA:AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Mission Assurance and Security Services OS:MA




                                                                                 Page 14
    The Computer Security Incident Response Center Is Operating
      As Intended, Although Some Enhancements Can Be Made



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 15
The Computer Security Incident Response Center Is Operating
  As Intended, Although Some Enhancements Can Be Made




                                                       Page 16
The Computer Security Incident Response Center Is Operating
  As Intended, Although Some Enhancements Can Be Made




                                                       Page 17
The Computer Security Incident Response Center Is Operating
  As Intended, Although Some Enhancements Can Be Made




                                                       Page 18
The Computer Security Incident Response Center Is Operating
  As Intended, Although Some Enhancements Can Be Made




                                                       Page 19
The Computer Security Incident Response Center Is Operating
  As Intended, Although Some Enhancements Can Be Made




                                                       Page 20
